        U.S. DEPARTMENT OF THE INTERIOR
         OFFICE OF INSPECTOR GENERAL
          ROYALTY INITIATIVES GROUP

Evaluation of Royalty Recommendations 
 Made to the Department of the Interior  
   Fiscal Year 2006 – February 2009 




Report No. CR‐EV‐MOA‐0003‐2009         April 2009
                  United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240

                                                                        APR 1 5 2009


Memorandum

To:            Secretary Salazar.    .     Jirll ,J).
From:          Mary L. Kendall~          ~ ~Le.--..-
               Acting Inspector Gener~C'1

Subject:       Evaluation Report on Royalty Recommendations Made to the Department of the
               Interior (Report No. CR-EV -MOA-0003-2009)

       This memorandum transmits our report detailing the results of our evaluation of the
Department's implementation of recommendations related to royalty programs since fiscal year
2006.

         Our evaluation found that of the 137 royalty related recommendations made since fiscal
year 2006, 59 recommendations had sufficient actions taken to consider them implemented or
closed. For the remaining 78 recommendations, we confirmed 52 as having actions initiated
towards completion, and 26 as having no action taken but a completion date has been
established in the corrective action plan.

       Should you have any questions about this report, please do not hesitate to contact me at
202-208-5745.

Attachment

cc:     Assistant Secretary, Land and Minerals Management
        Director, Minerals Management Service
        Director, Bureau of Land Management
                                  TABLE OF CONTENTS
Introduction ......................................................................................................... 1

   Background .......................................................................................................... 1

   Objective, Scope and Methodology .................................................................. 2


Results in Brief ................................................................................................... 3


Recommendations Made by the Subcommittee on Royalty
Management ........................................................................................................ 4


Recommendations Made by the Government Accountability
Office....................................................................................................................... 5

Recommendations Made by the Office of Inspector General....... 6


Appendices

   Appendix 1 – Status of the Subcommittee Recommendations .................... 8

   Appendix 2 – Status of Government Accountability Office
   Recommendations ............................................................................................. 13

   Appendix 3 – Status of Office of Inspector General Recommendations .. 14
                               INTRODUCTION
The Department of the Interior’s (Department) Minerals Management Service (MMS)
collected more than $24 billion in mineral royalty revenue in fiscal year 2008, which was
more than double the collections of $11.4 billion in fiscal year 2007 and $12.6 billion in fiscal
year 2006. This increase was primarily due to bonus payments from successful mineral
lease bidders totaling $10.1 billion.

The Subcommittee on Royalty Management (Subcommittee), the Government
Accountability Office (GAO), and the Office of Inspector General (OIG) have all made
numerous recommendations to the Department for program improvements in the last 3
years. The Subcommittee issued one report, GAO issued 12 reports and testimonies, and
OIG issued 6 audit and evaluation reports during the period October 1, 2005 through
February 9, 2009, concerning royalty collections. A total of 137 recommendations were
generated from the reports.

We initiated this evaluation in order to determine the status of the 110 royalty related
recommendations made to the Department by the Subcommittee. After starting our
review, we decided to include those recommendations made by GAO and OIG. This
report presents the results of our evaluation of the Department’s implementation of
recommendations related to royalty programs since fiscal year 2006.


  Background

The Subcommittee reports to the Royalty Policy Committee, which is chartered under the
Federal Advisory Committee Act to provide advice to the Secretary of the Interior
(Secretary) and other Departmental officials responsible for managing mineral leasing
activities. The Royalty Policy Committee further serves as a forum for individual States,
American Indian tribes, individual Indian mineral lease holders, industry, government
agencies, other stakeholders, and the general public who wish to voice their viewpoints on
pertinent royalty policy issues.

On March 22, 2007, the Subcommittee was appointed by the Secretary to conduct an
independent, prospective examination of MMS’s minerals revenue management program.
The Subcommittee was appointed following the publication of a report by OIG that raised
concerns about the audit and compliance program, as well as other issues separately raised
by OIG related to employee misconduct. These reports led to increased public concern and
heighted scrutiny by members of Congress. As a result of these concerns, the Secretary
determined that a fully independent examination of the program was warranted, and
necessary, to restore credibility to this important revenue-generating program and to the
staff who support it.



                                               [1]
The Subcommittee issued its report on December 17, 2007. The report contained 110
recommendations, mostly directed at MMS and the Bureau of Land Management (BLM),
which are the two Departmental bureaus with major roles in royalty management. In
addition, the Office of the Solicitor and the Bureau of Indian Affairs (BIA) were required to
respond to some of the recommendations. MMS’s Office of Policy and Management
Improvement (PMI) was appointed to coordinate the implementation of the
recommendations and track implementation progress.

The GAO; the audit, evaluation, and investigative arm of Congress; has the authority to
audit all government operations, including royalty collections in the Department. Since
fiscal year 2006, GAO issued 12 reports relating to royalty collections. However, only four
of the reports contained recommendations directed at the Department or MMS. The four
reports contained 14 recommendations.

The OIG, created by the Inspector General Act of 1978, is chartered to perform audits,
inspections, evaluations, and investigations of the Department’s programs. Congress can
request the OIG to review royalty collections and the OIG can initiate its own reviews.
Since fiscal year 2006, the OIG issued six audit/evaluation reports; however, only five
reports contained recommendations (13 in total) related to royalty collections.

The Department’s Office of Financial Management (PFM) coordinates and tracks the
implementation of GAO and OIG recommendations.


 Objective, Scope and Methodology

The scope of the review covered recommendations relating to the Department’s royalty
activities. The objectives of the evaluation were to assess whether the actions taken have
fully addressed recommendations reported as implemented and, also, whether action has
been initiated to address unimplemented recommendations. We did not attempt to
determine whether or not the actions taken will correct the identified problems.

To accomplish our objectives, we reviewed documentation provided by PMI and PFM, in
addition to information contained in the OIG recommendation tracking system. We also
determined the status of GAO recommendations using its website. As necessary, we
requested additional documentation.

Using the information obtained through document reviews, we designated the
implementation status of each recommendation into one of four categories:

   •   Implemented – Actions taken have fulfilled the intent of the recommendation as
       reported.


                                             [2]
   •   Closed – Closed but not implemented. The Department determined that it was not
       appropriate to implement the recommendation. Action was approved by
       management.

   •   Action Initiated – Responsible bureau has completed one or more of the tasks
       identified for completing the recommendation, or the responsible bureau has
       submitted a formal and complete corrective action plan to GAO or OIG.

   •   No Action initiated – A target date for completion of the Subcommittee
       recommendation has been established, but no corrective action has been completed.

We performed our evaluation from February through April 2009, and conducted our work
in accordance with the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency.



                          RESULTS IN BRIEF
Our evaluation found that 41 of the 110 recommendations of the Subcommittee had
sufficient actions taken to consider them implemented or closed. For the remaining 69
recommendations, we confirmed 43 as having actions initiated towards completion, and 26
as having no action taken but a completion date has been established in the corrective
action plan. In addition, we confirmed that 9 of the 14 recommendations made by GAO
and 9 of the 13 recommendations made by OIG had been implemented. The remaining five
GAO recommendations and four OIG recommendations were resolved but not
implemented (action initiated).

                   Status of Royalty Recommendations Reviewed

         Recommending                                           Action     No Action
                          Total    Implemented     Closed
             Agency                                            Initiated   Initiated
       Subcommittee        110          34            7           43          26
       GAO                  14           9            -            5           -
       OIG                  13           9            -            4           -
       Total               137          52            7           52          26




                                             [3]
         RECOMMENDATIONS MADE BY THE
           SUBCOMMITTEE ON ROYALTY
                MANAGEMENT
The Department has implemented or
closed 41 of the 110 recommendations               STATUS OF SUBCOMITTEE RECOMMENDATIONS
(34 implemented and 7 closed). For 43
recommendations, a target date for                                               Implemented
completion has been established and at               24%         31%
least one or more intermediate tasks                                             Closed
have been completed and reported to                                    6%
                                                      39%                        Action Initiated
PMI. For the remaining 26
recommendations, a completion date
                                                                                 No Action
has been established but no completed                                            Initiated
actions have been reported to PMI (see
Appendix 1).

The Department took a prioritized approach to implementing the Subcommittee
recommendations, first addressing those that management considered of high risk, then
identifying those that needed to be done before other recommendations could be
addressed, and finally addressing those that required publication in the Federal Register,
such as for rule making or regulatory changes. Consideration also had to be given to the
availability of staff and coordination of the large number of groups involved from each
agency.

When we initiated our evaluation, we were informed that 39 of the recommendations had
been implemented. During our review, two additional recommendations were completed.
However, we noted that one recommendation was scheduled to be completed by the end
of January 2009, but is now past due, as shown in the following table:

                     Subcommittee Recommendation Summary

                             Number of Recommendations 
     Implemented    Past                 To Be Implemented By                 
       or Closed    Due      FY 2009     FY 2010     FY 2011      FY 2012        Total 
         41           1         27          30          5            6            110 

Included in the 41 recommendations listed as Implemented or Closed are 7
recommendations that were closed but not implemented. The MMS determined for



                                             [4]
various reasons that it would not be appropriate to implement the recommendations. Our
review concluded that the actions taken were appropriate and properly approved. For
example, Recommendation 6-13 (see Appendix 1) was to discontinue the small refiners’ set-
aside program as soon as possible. After MMS received public feedback in a Federal
Register notice, performed a determination of need, and prepared an Issue Paper, the MMS
Associate Director for Minerals Revenue Management recommended continuing the small
refiners’ program, primarily based on the comments received from program participants.
The MMS Director concurred with the decision. Since MMS considered the
recommendation as completed without implementation, we designated the
recommendation as closed.

Our evaluation determined that the status reported by PMI in their tracking system is
current and accurate. The status of the recommendations is updated monthly subsequent
to the Implementation Steering Committee meetings. PMI’s tracking system reports
implementation of the recommendations, including tasks completed or outstanding, which
were established to complete each recommendation, and the completion date for each
recommendation. PMI’s tracking system is different than those used by GAO or OIG in
that one or more tasks are established and tracked toward implementation of each
recommendation. PMI receives and files documentation supporting the completion of each
task and final completion of the recommendation. Therefore, PMI can show that action has
been initiated towards implementation. Neither GAO nor OIG receive interim information
on actions taken towards implementation. Their tracking systems only report when all
actions are completed on each recommendation.


     RECOMMENDATIONS MADE BY THE
   GOVERNMENT ACCOUNTABILITY OFFICE
The Department has implemented 9 of the
14 recommendations made by GAO.                          STATUS OF GAO
For the remaining five recommendations,             RECOMMENDATIONS
the Department has concurred with the
recommendations and has established
completion dates for implementation;                                      Implemented
therefore, we consider the status of these         64%
                                                              36%
                                                                          Action
recommendations as Action Initiated (see
                                                                          Initiated
Appendix 2).

We noted that in the case of one other
GAO report, issued in draft to the
Department, the Department disagreed with the recommendations. Subsequently, GAO
issued the final report to Congress and recommended that it ensure the Department takes



                                             [5]
appropriate action to implement the recommendations. Since GAO made the
recommendations to Congress, not the Department, we excluded these recommendations
from our review.

GAO’s recommendations made to the Department are tracked in two separate systems.
One is maintained by GAO and the other by the Department. Although these two systems
should agree with one another, we found that for two of the four reports, the status listed
and recommendations tracked were different. In Report No. GAO-08-893R, four of the
seven recommendations were not listed in the GAO system and two of the three
recommendations listed as in-process in GAO’s system were shown as implemented in the
Department’s system. In Report No. GAO-08-942R, one of the two recommendations listed
as in-process in GAO’s system was shown as implemented in the Department’s system.
We made no attempt to determine why the difference existed. We used the best available
information from the two systems to confirm the status of the recommendations we
reviewed.

                          GAO Recommendation Summary

                                                                    Action
                    Report Number      Total         Implemented
                                                                   Initiated
                  GAO-06-629             2                2            -
                  GAO-07-590R            3                3            -
                  GAO-08-942R            2                1            1
                  GAO-08-893R            7                3            4
                  Total                  14               9            5




 RECOMMENDATIONS MADE BY THE OFFICE
       OF INSPECTOR GENERAL
The Department has implemented 9 of
the 13 recommendations issued by OIG.                         STATUS OF OIG
For the four other recommendations,
the Department has agreed with the
                                                        RECOMMENDATIONS
recommendations and is in the process
of implementing them. For our
purposes in this evaluation they are                                           Implemented
                                                      69%           31%
shown as Action Initiated (see
                                                                               Action
Appendix 3).
                                                                               Initiated




                                               [6]
In performing our evaluation, we noted that 22 of the recommendations made by the
Subcommittee were related to or similar to recommendations or observations contained in
OIG reports. In six cases the documentation used to close the Subcommittee
recommendations had already been submitted to OIG for closure of its recommendations.
While there is nothing wrong with two entities issuing identical or similar
recommendations, it does demonstrate that the issues being discussed are well known and
that correcting them should be a priority.

OIG recommendations are tracked in separate systems at the Department and at OIG.
During our review we noted no differences between the two systems for the
recommendations being tracked or the reported status.

Our evaluation noted two recommendations where MMS did not concur; however, we
designated the recommendations as Action Initiated. These recommendations were
referred by OIG to the Department for resolution. Subsequently, MMS and OIG have
agreed to a corrective action plan. MMS has prepared and submitted this plan to the
Department to resolve the recommendation and show that MMS is taking action to correct
the problems noted. We have categorized these two recommendations as Action Initiated
for this review.

We identified one recently issued OIG report, Report No. C-EV-MOA-0009-2008 “Oil and
Gas Production on Federal Leases; No Simple Answer”. It contained five
recommendations and OIG has just received the written response from MMS. The
response stated that MMS concurred with four recommendations and partially concurred
with one recommendation. Since the report was issued at the end of our fieldwork and we
just recently referred the recommendations to the Department, we excluded the report
from this review.

                          OIG Recommendation Summary
                                                                 Action
                   Report Number       Total     Implemented
                                                                Initiated
               C-IN-MMS-0006-2006         3           3
               C-EV-MMS-0001-2008         6           2            4
               X-IN-MMS-0006-2006         2           2
               X-IN-MMS-0010-2007         1           1
               X-IN-MMS-0019-2006         1           1
               Total                     13           9            4




                                          [7]
                               APPENDIX 1
    STATUS OF THE SUBCOMMITTEE RECOMMENDATIONS


          Recommendation                 MMS           BLM      BIA          SOL

3-1 BTU Variability Procedures

3-2 BTU Sampling and Analysis

3-3 Requesting BTU Information

3-4 BTU Comparisons

3-5 Revise CFR

3-6 Amend MMS-2014

3-7 Modify Systems

3-8 Amend RSFA

3-9 Electronic Transmissions

3-10 Report Frequency

3-11 Electronic Reporting

3-12 Pilot System

3-13 Electronic Payments

3-14 Error Corrections

3-15 Exception Reporting

3-16 Gas Plant Reporting

3-17 Gas Plant Reviews

3-18 Update Guidance

3-19 Communication Timelines


 34 Implemented             7 Closed   43 Action Initiated   26 No Action Initiated




                                        [8]
          Recommendation                MMS           BLM       BIA          SOL

3-20 MMS Contacts

3-21 Update Handbooks

3-22 Establish Workgroup

3-23 Specialist Team

3-24 New LR2000 Code

3-25 Estimate Review Hours

3-26 PATs Duties

3-27 Compliance Enforcement

3-28 Contract Employees

3-29 Adequate Staffing Levels

3-30 Standardized PAT Descriptions

3-31 PET Certification

3-32 Training Needs Assessment

3-33 Annual Agency Workshop

3-34 Mine Inspector Certification

3-35 Surface Mine Technology

3-36 Periodic PET/PAT Meetings

4-1 Compliance Strategy Council

4-2 Compliance Resource Needs

4-3 Resource Allocations

4-4 Compliance Tool Evaluation

4-5 High-risk Review Targets

4-6 Whistleblower Pilot Program

4-7 Flexible Requirements

 34 Implemented             7 Closed   43 Action Initiated   26 No Action Initiated



                                         [9]
          Recommendation                MMS           BLM      BIA          SOL

4-8 Electronic Submissions

4-9 Risk-based Pilot Project

4-10 Enhance Tracking System

4-11 GAO/OIG Project Progress

4-12 Monitor Compliance Program

4-13 New GPRA Goals

4-14 Automate Data Entry

4-15 Evaluate Other Measures

4-16 Improve Calculating Interest

4-17 Eliminate Duplicate Databases

4-18 Automated Updates

4-19 Consistent Review Procedures

4-20 Consult Inspector General

4-21 Electronic Run Tickets

4-22 Onshore Run Tickets

4-23 Process Improvements

4-24 Finalize Valuation Changes

4-25 Valuation Methodology

4-26 Gas Valuation Regulations

4-27 Price Calculation Guidance

5-1 Understanding Permit Issuance

5-2 Secure Indian System Access

5-3 Reconnect Indian Systems

5-4 Revise password Requirements


 34 Implemented            7 Closed   43 Action Initiated   26 No Action Initiated


                                       [10]
          Recommendation                  MMS          BLM      BIA          SOL

5-5 Coordination Guidance

5-6 Verification Reports to MMS

5-7 Establish Geospatial Standards

5-8 Boundary Information Review

5-9 Establish PCC

5-10 Inter-Bureau Coordination

6-1 Establish RPC

6-2 Subcommittee RIK Review

6-3 Revised Certainty Regulations

6-4 Public RIK Guidebook

6-5 MMS Outreach

6-6 Treasury Trust Fund Feasibility

6-7 FAR Contracting Arrangements

6-8 Commercial Activity RIK

6-9 Organizational Cost-Benefit

6-10 Alternative Structure Oversight

6-11 Discontinue RIK Program

6-12 RIK Decision Document

6-13 Discontinue Set-Aside

6-14 Amend MOU with DOE

6-15 SPR Transfer Report

6-16 RIK Personnel Ethics

6-17 RIK Workforce Structure

6-18 Streamline Vacancies Process


 34 Implemented              7 Closed   43 Action Initiated   26 No Action Initiated

                                        [11]
          Recommendation                 MMS          BLM       BIA          SOL

6-19 RIK Legal Support

6-20 RIK Market Expertise

6-21 Monthly Performance Metrics

6-22 Benchmarking Presentation

6-23 Benchmark Methodology

6-24 RIK Performance Data

6-25 Centralized Calculations

6-26 Future Marketing Strategy

6-27 Enhanced Measures

6-28 Publish RIK Comparison

6-29 Codify Auction Approach

6-30 Detailed Bid Procedures

6-31 Alternative Auction Pilot

7-1 Voluntary Royalty Payments

7-2 Royalty Legislative Options

7-3 Implement Secretary Memo

7-4 “Lessons Learned” Review

7-5 Key Staff Performance

7-6 Additional Ethics Training


 34 Implemented             7 Closed   43 Action Initiated   26 No Action Initiated




                                       [12]
                           APPENDIX 2
STATUS OF GOVERNMENT ACCOUNTIBILITY OFFICE RECOMMENDATIONS

                       Recommendation                               Status

                                    Renewable Energy
                                      GAO-06-629

             1 Correct royalty data

             2 Collect for electricity sold

                       Oil and Gas Royalties: Royalty Relief
                                 GAO-07-590R

             1 Lease status to Congress

             2 Lease status to Congress

             3 Estimates to Congress

                Oil and Gas Royalties: Royalty-in-Kind Program
                                GAO-08-942R

             1Verification of natural gas

             2 Benefits and costs for RIK

                                    Mineral Revenue
                                     GAO-08-893R

             1 Production inspections

             2 Terms for offshore leases

             3 Production Inspection Data

             4 Conduct study FOGRSF Act

             5 Monitor adjustments

             6 Timely royalty reports

             7 Self-reported data

                           9 Implemented             5 Action Initiated


                                              [13]
                       APPENDIX 3
STATUS OF OFFICE OF INSPECTOR GENERAL RECOMMENDATIONS

                    Recommendation                           Status

                      MMS Compliance Review Process
                         C-IN-MMS-0006-2006

           A.1 CAM program

           A.2 Strengthen CRP

           A.2 CAM performance

                           Royalty-In-Kind Program
                            C-EV-MMS-0001-2008

           1 Operations manual

           2 Legal review contracts

           3 Consult with SOL

           4 RIK staffing needs

           5 Pilot project sales

           6 Longer term contracts

            Management Letter on MMS Financial Statements 2005
                          X-IN-MMS-0006-2006

           3 Interest billing backlog

           5 Offshore bonus revenue

            Management Letter on MMS Financial Statements 2006
                          X-IN-MMS-0010-2007

           2 Process to bill interest

            Auditors’ Opinion on MMS Financial Statements 2006
                           X-IN-MMS-0019-2006

           B-2 Proper recording


                       9 Implemented           4 Action Initiated


                                        [14]
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240

By Phone:              24-Hour Toll Free         800-424-5081
                       Washington Metro Area     703-487-5435

By Fax:                703-487-5402

By Internet:           www.doioig.gov



                                                          Revised 06/08
